OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/IRAQ’S
CASH CONTROL
PROCEDURES
AUDIT REPORT NO. E-267-05-005-P
September 27, 2005




BAGHDAD, IRAQ
Office of Inspector General


      September 27, 2005


      MEMORANDUM

      TO:                      USAID/Iraq Mission Director, Dawn M. Liberi

      FROM:                    Regional Inspector General, Baghdad, Nancy J. Lawton /s/

      SUBJECT:                 Audit of USAID/Iraq’s Cash Control Procedures
                               (Report No. E-267-05-005-P)

      This memorandum transmits our final report on the subject audit. In finalizing the report,
      we considered your comments on the draft and have included them, without attachments,
      as Appendix II.

      The report contains one recommendation for corrective action. In your written
      comments, you concurred with the recommendation and provided evidence of actions
      taken to address the auditors’ concerns. Based upon the action taken to address these
      concerns, we consider that a management decision has been reached and final action
      has been taken on Recommendation No. 1.

      I want to express my sincere appreciation for the cooperation and courtesies extended
      to my staff during this audit.




U.S. Agency for International Development
USAID/IRAQ/RIG
APO, AE 09316
CONTENTS
Summary of Results ....................................................................................................... 1

Background .................................................................................................................... 2

Audit Objectives ................................................................................................................ 2

Audit Findings ................................................................................................................. 3

Did USAID/Iraq manage its cashiering operations in accordance with
established regulations, policies, and procedures? .......................................................... 3

     Documentation Needed to
     Support Petty Cash Funds ........................................................................................ .3

Did USAID/Iraq properly calculate and disburse cash payroll
payments to its foreign service national workforce in accordance with
established regulations, policies, and procedures? .......................................................... 5

Evaluation of Management Comments ......................................................................... 6

Appendix I – Scope and Methodology .......................................................................... 7

Appendix II – Management Comments ......................................................................... 9
SUMMARY OF RESULTS
Cashiers use imprest funds to pay small, routine operating expenses. As of July 2005,
USAID/Iraq was operating a $350,000 imprest fund to disburse cash for a variety of
reasons, including petty cash, procurement, payroll, travel-related reimbursements, and
travel advances. The Mission also used its imprest fund to establish small petty cash
funds at its regional offices in Erbil, Hillah, and Basrah. (See page 2.)

The Regional Inspector General in Baghdad, Iraq conducted this audit to determine
whether the Mission (1) managed its cashiering operations in accordance with
established regulations, policies, and procedures and (2) properly calculated and
disbursed cash payroll payments to its foreign service national workforce in accordance
with established regulations, policies, and procedures. (See page 2.)

USAID/Iraq properly managed its cashiering operations, and it properly calculated and
disbursed its foreign service national cash payroll payments. However, we noted that the
Mission did not require its regional representatives to sign a form to confirm that they
received the petty cash funds sent to them. This unnecessarily exposed the Mission,
and the staff responsible for transporting and receiving the cash, to the risk that
someone could misappropriate the funds and deny having any responsibility for them
because of the uncertainty surrounding when accountability for the cash was transferred.
(See page 3.)

This report contains one recommendation for USAID/Iraq to finalize and implement its
draft policy requiring regional offices to accept, in writing, petty cash funds delivered to
them by the Mission’s cashier’s office. (See page 4.) See page 6 for our evaluation of
management comments.

Management comments are included in their entirety in Appendix II.




                                                                                          1
BACKGROUND
U.S. Department of State officials and U.S. disbursing officers may create imprest funds,
also called petty cash funds that cashiers operate in order to pay small, routine operating
expenses. Cashiers are officers or employees of the Federal Government who are
authorized to disburse cash or carry out other cash operations.

As of July 2005, USAID/Iraq was operating a $350,000 imprest fund. USAID/Iraq’s
cashier was authorized to disburse cash for a variety of reasons, including petty cash,
procurement, payroll, travel-related reimbursements, and travel advances. The Mission
also used its imprest fund to establish small petty cash funds—ranging from $500 to
$2,000—at its regional offices in Erbil, Hillah, and Basrah.


AUDIT OBJECTIVES
As part of its fiscal year 2005 annual audit plan, the Regional Inspector General in
Baghdad, Iraq conducted this audit to answer the following objectives:

      Did USAID/Iraq manage its cashiering operations in accordance with established
       regulations, policies, and procedures?

      Did USAID/Iraq properly calculate and disburse cash payroll payments to its
       foreign service national workforce in accordance with established regulations,
       policies, and procedures?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                         2
AUDIT FINDINGS
Did USAID/Iraq manage its cashiering operations in accordance
with established regulations, policies, and procedures?
With one exception, USAID/Iraq managed its cashiering operations in accordance with
established regulations, policies, and procedures.

The cashier’s office met the government’s physical security standards for cashier’s
offices, and access to the cashier’s office was limited. The Mission secured its cash in a
combination safe and disbursed it from within the cashier’s office.

Furthermore, documentation used to support the Mission’s cash disbursements was
properly authorized by the appropriate Mission personnel, and employees from the
Mission’s Financial Management Office conducted periodic unannounced cash counts.
As part of the audit, the audit team conducted an unannounced cash count and
reconciliation of the imprest fund on July 11, 2005; the auditors did not identify any
discrepancies.

Although the Mission properly managed its cashiering operations, we identified an issue,
described below, which the Mission should address to strengthen its internal controls
over the imprest fund.


Documentation Needed to
Support Petty Cash Funds


 Summary: On two separate occasions, a representative from the Mission delivered
 cash to its regional office in Basrah, but there were no documents on file to prove that
 an official in Basrah accepted the funds. The Mission did not require its regional
 representatives to sign a form confirming the receipt of petty cash funds, thereby
 exposing the Mission, and the staff responsible for transporting and receiving the
 cash, to the risk that someone could misappropriate the funds and deny having any
 responsibility for it because of the uncertainty surrounding when accountability over
 the cash was transferred. Moreover, the transfer of petty cash advances to a
 regional office is a significant event, and according to the Government Accountability
 Office’s Standards for Internal Control in the Federal Government, “all transactions
 and other significant events need to be clearly documented.”


Various unsettled cash advance forms were on file in the cashier’s office during the
surprise cash count. Among other things, the Mission used these forms to record the
existence of small petty cash funds in its regional offices.

In November 2004, a USAID employee signed a cash advance form documenting that
he was transporting $500 to the USAID regional office in Basrah. However, there was no
document on file to prove that an official in Basrah accepted the funds. Similarly, in


                                                                                            3
December 2004 an individual signed a cash advance form agreeing to transport an
additional $1,000 to USAID’s regional office in Basrah. Again, there was no document on
file to prove that an official in Basrah accepted the funds.

The Mission did not require its regional representative to sign a form documenting that
the couriers delivered the cash. The cashier stressed that the Mission knew that the
regional office in Basrah received the cash because the Mission sent the funds with an
employee it trusted and because the regional representative in Basrah would have
contacted the Mission if the funds did not arrive. Nevertheless, without a document
proving that someone from the regional office accepted the funds, the Mission, and the
staff responsible for transporting and receiving the cash, were unnecessarily exposed to
the risk that someone could misappropriate the funds and deny any responsibility for it
because of the uncertainty surrounding when accountability over the cash was
transferred. Moreover, the transfer of petty cash advances to a regional office is a
significant event, and according to Government Accountability Office’s Standards for
Internal Control in the Federal Government, “all transactions and other significant events
need to be clearly documented.”

The controller acknowledged that the Mission needed to augment its written policies
relating to its regional offices and had tasked the deputy controller with addressing this
weakness. During the course of the audit, the deputy controller drafted a handbook for
the regional offices that provided a brief overview of the Mission’s policies for
administering, replenishing, and securing a petty cash fund. The draft handbook also
included a form that the Mission intended to use to document that petty cash funds
transferred out to the regional offices had been accepted by the regional representatives.

Once implemented, the new form, in conjunction with the handbook, should help ensure
that petty cash funds transferred to the Mission’s regional offices are adequately
documented. Therefore, we are making the following recommendation:

    Recommendation No. 1: We recommend that USAID/Iraq finalize and
    implement its draft policy requiring regional offices to accept, in writing,
    petty cash funds delivered to them by the Mission’s cashier’s office.




                                                                                        4
Did USAID/Iraq properly calculate and disburse cash payroll
payments to its foreign service national workforce in
accordance with established regulations, policies, and
procedures?
USAID/Iraq properly calculated and disbursed cash payroll payments to its foreign
service national (FSN) workforce for the period of January 1 to May 31, 2005. Payroll
amounts recorded in the Mission’s imprest fund agreed with the supporting
documentation maintained in the accounting records, and the Mission complied with the
pay policies outlined in its local compensation plan. In addition, controls existed and
were functioning properly to protect the Mission’s funds.

Specifically, as the result of our testing, we determined that:

   •   No unexplained discrepancies existed between USAID/Iraq’s accounting records
       and the amounts recorded in the cashier’s accountability reports.

   •   Payroll disbursements observed by the auditors on a payday during the course of
       the audit had sufficient controls in place to document and safeguard FSN payroll
       disbursements.

   •   For a judgmentally selected pay period, no material differences were found
       between expected FSN payroll amounts based on the timesheets and the
       amounts recorded on the payroll voucher.

   •   No evidence existed suggesting that documentation for fictitious employees had
       been created.

   •   Reports used to document payroll transactions appeared to provide sufficient
       information to allow Mission personnel to properly track and process payroll
       transactions.

Because USAID/Iraq properly calculated and disbursed cash payroll payments and
established adequate internal controls, we are not making any recommendations.




                                                                                     5
EVALUATION OF
MANAGEMENT COMMENTS
In response to our draft report, USAID/Iraq concurred with the audit recommendation
and provided evidence indicating that it had already taken action to address the auditors’
concern. Specifically, the Mission management stated that it had finalized its policy and
will shortly begin its implementation. The Mission furnished a copy of the new policy
titled “Petty Cash Administrator’s Handbook” which is designed to provide an
explanation of the normal operating cycle of petty cash and explain the use of the
emergency salary advance. Incorporated in the new policy is the requirement that the
Regional Office Director must sign for the receipt of funds. Additionally, the original
signed copy for the receipt of funds must be returned to the Mission’s cashier.

Subsequent to receiving the management comments, the USAID/Iraq Financial
Management Office emailed the implementation of the new policy to its regional offices.
We believe the actions taken by the Mission should strengthen management controls
related to its cashiering operations.

Based on the information provided, we consider that USAID/Iraq has reached a
management decision and final action on Recommendation No. 1.

Management’s Comments are included, excluding attachments, in their entirety in
Appendix II.




                                                                                        6
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope

The Regional Inspector General in Baghdad audited USAID/Iraq’s cashiering operations
in accordance with generally accepted government auditing standards. The purpose of
the audit was to determine whether the Mission (1) managed its cashiering operations in
accordance with established regulations, policies, and procedures and (2) properly
calculated and disbursed cash payroll payments to its foreign service national (FSN)
workforce in accordance with established regulations, policies, and procedures.

To conduct the audit, we performed an unannounced cash count of USAID/Iraq’s
cashier’s office on July 11, 2005. To ascertain the accuracy of the reported cash
balance of the imprest fund, the audit team:

   •    counted the cash on hand,
   •    verified the cashier’s checks,
   •    reviewed the current bank statement,
   •    reviewed the cash disbursements,
   •    reviewed the supporting documentation for outstanding advances, and
   •    reconciled the amount documented to the authorized imprest fund of $350,000.

In addition, we reconciled the $1.3 million of cash disbursements for the period of
January 1 to May 31, 2005. To evaluate the internal controls related to the approval
process, the audit examined 10 percent, or $96,422, of the cash disbursements made
during this period. Auditors examined payroll disbursements totaling $789,461 for the
same period. The audit team also conducted a surprise cash count at the USAID/Iraq’s
Hillah regional office on August 24, 2005.

The audit team conducted an initial risk and internal control assessment. After gaining a
basic understanding of the internal controls based on the results of prior audit work, the
audit team conducted a series of tests to (1) assess the physical security of the cashier’s
office, (2) test the approval process for cash disbursements, (3) ensure that surprise
cash counts were conducted, and (4) evaluate the independence of the cashier. Based
on the tests conducted during the fieldwork, the audit team determined that the internal
controls were functioning and helped ensure that U.S. government assets were
safeguarded. Prior audit findings affecting USAID/Iraq’s cashiering operations were
reviewed and considered.

We conducted the audit at the Mission’s office in Baghdad, Iraq from July 11 to August
29, 2005. We visited one of the Mission’s regional offices to conduct a surprise cash
count, but we could not perform work at the other regional offices because of travel
restrictions and because the risks associated with not auditing these relatively small
petty cash funds did not outweigh the security concerns related to conducting additional
site visits.




                                                                                          7
                                                                          APPENDIX I


Methodology

To answer the audit objectives, we reviewed documents and controls relevant to the
cashiering operations and FSN payroll disbursements. To evaluate the Mission’s
cashiering operations, the audit team conducted surprise cash counts, reviewed
accountability reports, verified vouchers and cash receipts, interviewed the cashier and
controller, and evaluated the physical security of the cashier’s office. To evaluate the
payroll cash disbursements, the audit team compared the disbursements recorded in the
accounting system to the amounts recorded in the cashier’s office, reviewed a
judgmental sample of timesheets submitted by FSNs, reviewed the procedures for
processing final payroll payments, and verified that FSN employees were required to
produce some form of identification and sign for the receipt of their cash payments.

Because the liquidity of cash creates a high risk of theft, the audit team did not set a
materiality threshold for the cash count; any deficiency it identified would have been
treated as a reportable condition. The audit used the following guidance to evaluate
other potential weaknesses: the Department of the Treasury’s Manual of Procedures
and Instructions for Cashiers (Cashier’s Manual); USAID/Iraq Mission Notice 04-006;
Volume 4, Handbook 3 of the Foreign Affairs Handbook; and the Government
Accountability Office’s Standards for Internal Control in the Federal Government.

Although the audit team decided to rely on judgmental samples for certain tests, the
auditors coordinated with the Office of Inspector General statistician to develop and
analyze a statistical sample to determine if cash disbursement vouchers were properly
authorized. Using interval sampling, the audit team selected 56 transactions
(approximately 10 percent of the universe) for examination using a 90 percent
confidence interval. The statistician projected the results to the population and
determined that the population had a minor error rate of less than 5 percent.




                                                                                       8
                                                                               APPENDIX II



MANAGEMENT COMMENTS



UNCLASSIFIED

TO:            Nancy Lawton, Regional Inspector General

FROM:          Dawn Liberi, Mission Director /s/

DATE:          September 15, 2005

SUBJECT:       Audit Response


On behalf of USAID/Iraq, I would like to express my appreciation for the conscientious
and professional effort reflected in the subject audit report. The finding will be helpful to
the mission as we implement policies and procedures to safeguard its cash assets.

Through this memorandum, USAID\Iraq provides its formal concurrence with the audit
findings, which include the following:

.          USAID/Iraq has properly managed its cashiering operations. We should,
           however, ask our regional representatives to sign a form confirming that they
           have received petty cash funds.

·          The audit also found that USAID/Iraq has properly calculated and disbursed
           its FSN cash payroll payments and that controls are in place to protect those
           funds.

·          The audit noted several minor areas of concern, mostly involving
           documentation, which should be addressed.

The audit contained one recommendation, that “USAID/Iraq finalize and implement its
draft policy requiring its regional offices to accept, in writing, petty cash funds delivered
to them by the mission’s cashier’s office.” We are pleased to report that USAID/Iraq has
finalized its policy and will shortly begin its implementation.

A copy of the finalized policy is attached to this memorandum.




                                                                                                9
USAID/IRAQ/RIG
APO, AE 09316
Tel: (202) 216-6276, extension 1036
Fax: (202) 216-6276
www.usaid.gov
